AUDIT OF NARA'S NETWORK INFRASTRUCTURE


           OIG Report No. 10-07


              April 28, 2010

                                                                      OIG Audit Report No. 10-07


EXECUTIVE SUMMARY

Networks are collections of interconnected computer systems and devices allowing
individuals to share resources, such as computer programs and information. Because
sensitive programs and information are stored on or transmitted along networks,
effectively securing networks is essential to protecting computing resources and data
from unauthorized access, manipulation, and use. Organizations secure their networks, in
part, by installing and configuring network devices that permit authorized network
service requests, deny unauthorized requests, and limit the services available on the
network. Organizations also secure their networks by ensuring appropriate physical and
logical access controls are in place to restrict unauthorized access to these network
devices.

We audited NARA’s network infrastructure to determine whether NARA had effectively
implemented appropriate physical security and access controls to protect network
resources. In addition, we reviewed whether network components provide adequate
network security.

Our review revealed that appropriate physical security and access controls had not been
implemented which left network equipment vulnerable to potential compromise, theft, or
damage. These weaknesses could jeopardize the availability of NARANet. We also
identified several opportunities to improve security and operation of the network.
Specifically:
   •	 The Chief Information Officer and her staff were unable to effectively manage
      and assess the overall network security of NARA’s infrastructure because a
      complete and accurate network diagram was not maintained;
   •	 Improper firewall management and configuration created vulnerabilities in the
      network and increased the amount of time it takes traffic to pass into the network;
   •	 Firewall log files were not being reviewed to identify inappropriate activity or
      potential threats;
   •	 Multiple weaknesses in logical access controls increased the risk of unauthorized
      access to network devices and servers; and
   •	 Additional physical security and environmental controls are needed at NARA
      Regional Archives, Record Centers, and Presidential Libraries to restrict physical
      access to computer resources and protect them from intentional or unintentional
      loss or damage.

This report contains 18 recommendations which, upon implementation, will assist NARA
in providing appropriate management and technical controls over the network. In
response to a draft of this report, the Assistant Archivist for Information Services
concurred with 17 of the 18 recommendations.




                                          Page 1
                       National Archives and Records Administration
                                                                       OIG Audit Report No. 10-07


BACKGROUND

NARANet is NARA’s General Support System that processes, stores and communicates
data between NARA employees, vendors, contractors and clients at various NARA
locations. According to the current draft version of the System Security Plan for
Network Infrastructure, the infrastructure includes but is not limited to firewalls, routers,
switches, servers, computers and storage devices used by staff and contractors both
internally and remotely. The primary function of NARANet is to facilitate the
communication, storage, and processing of agency information for use internally and to
provide a completed product and/or service to other Federal agencies and the general
public.

NARA’s Wide Area Network (WAN) infrastructure connects all NARA Records
Centers, Regional Archives, and Presidential Libraries via a Frame Relay Network. This
infrastructure integrates and links all locations into one logical NARA Network by
providing each site’s Local Area Network (LAN) with an integration point to access the
WAN. NARA is in the process of replacing the current frame-relay network with a
Multi-Protocol Label Switching network.

The Office of Information Services has responsibility for the operation of NARANet as
the system owner and is also responsible for security implementation within the system.
IT support services are provided by contract. NARA's IT and Telecommunications
Support Services (NITTSS) contractor manages and operates NARA’s network
(NARANet). IT support for the Regional Records Services Facilities and Presidential
Libraries are provided by Field Office Systems Administrators (FOSA), who are
responsible for providing day-to-day operations and help desk support, systems
administration, general maintenance and preventative maintenance support for all
systems related to the NARANET environment.

PREVIOUS AUDIT REPORTS

The NARA OIG has issued three reports over the last five years identifying weaknesses
related to the network infrastructure. These weaknesses included: a) Lack of firewall
policies and procedures and a lack of regular ongoing scanning and testing of NARANet
(OIG Report 06-01); b) NARA’s controls over system administrator accounts were weak
and needed immediate improvement (OIG Report 06-11); and c) unauthorized devices,
such as hubs and multifunction copiers were connected to NARANet without approval
from the Office of Information Services (OIG Report 07-10).

OBJECTIVE, SCOPE, METHODOLOGY

The objective of our audit was to determine whether NARA had effectively implemented
appropriate physical security and access controls to protect network resources. In
addition, we were to also review whether network components provide adequate network
security.



                                           Page 2
                        National Archives and Records Administration
                                                                       OIG Audit Report No. 10-07


The audit was conducted at Archives II in College Park, Maryland and selected field
offices. To accomplish the audit objectives we interviewed representatives of the Office
of Information Services (NH) and IT Support contractors. We reviewed National
Institute of Standards and Technology (NIST) Special Publications 800-53
“Recommended Security Controls for Federal Information Systems and Organizations,”
Revision 3, August 2009; 800-41 “Guidelines on Firewalls and Firewall Policy,”
Revision 1, September 2009; and 800-115 “Technical Guide to Information Security
Testing and Assessment,” September 2008. We also reviewed NARA’s IT Security
Requirements, version 5.5, May 29, 2009, and NARA IT Security Methodologies for
“Access Control,” “Physical and Environmental Protection,” “System and
Communication Protection,” and “Identification and Authentication.”

To observe physical security controls protecting network resources we visited five
Presidential Libraries – Dwight Eisenhower, Lyndon Johnson, Jimmy Carter, Ronald
Reagan, and George Bush; three Record Centers – Washington National Records Center
(Suitland, MD), Southeast Region (Ellenwood, GA), and Pacific Region (Riverside, CA);
and two Regional Archives facilities – Southeast (Morrow, GA) and Pacific (Laguna
Niguel, CA). At each of these facilities we observed the location of network equipment
and assessed whether the equipment was adequately protected from interruptions in
computer services, physical damage, and theft. For those locations that had a wireless
network, we reviewed the controls in place to secure the wireless network. We also
visited the data center supporting the Electronic Records Archive (ERA) system located
in Rocket Center, W.V. and reviewed physical security and environmental controls over
the equipment.

To review access controls in place to protect network resources we reviewed whether
system and network administrators were appropriately identified and authenticated.
Specifically, we reviewed administrator accounts on the servers located at the field sites
we visited. We also reviewed the mechanisms in place used to authenticate to the
network routers, switches, and firewalls.

To review the security of network components we attempted to review the placement of
routers and switches within the network. Our review in this area was limited by the lack
of a complete network drawing. We also reviewed the configuration of the main NARA
firewall and determined whether the rulesets were documented. We originally planned to
perform vulnerability scans of the network however, NH was unable to provide us with a
current listing of IP addresses.

Our audit work was performed between June 2009 and February 2010. We conducted
this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.



                                           Page 3
                        National Archives and Records Administration
                                                                          OIG Audit Report No. 10-07


FINDINGS AND RECOMMENDATIONS

Review of Network Devices

Inaccurate and Incomplete Network Diagram

The Chief Information Officer (CIO) and her staff were unable to effectively manage and
assess the overall network security of NARA’s infrastructure. This occurred because a
complete and accurate network diagram was not maintained. Specifically, NH officials
did not have a process in place to update and maintain an accurate network diagram and
believed it was the contractor’s responsibility to do so. NIST SP 800-53 requires NARA
to maintain a current baseline configuration of NARANet which includes a network
topology. By not having a complete network diagram, NH officials are not aware of
potential security vulnerabilities that may exist in the network.

Network drawings are important because they show the overall layout of the network
infrastructure and where devices are physically located. They also show the relationship
and inter-connectivity between devices and where possible intrusive attacks could take
place. Therefore, they assist in the management and auditing of the security of the
network infrastructure. We requested a current official drawing of the NARANet
infrastructure from the Chief Technology Officer (CTO). NH officials provided an
“unofficial” topology drawing, stating that the topology was labeled as “unofficial” to
distinguish it from nonexistent “official” drawings. In addition, we also obtained a copy
of a network infrastructure drawing from the IT Services contractor which illustrated the
physical connectivity of the network devices.

We found neither drawing was comprehensive, as all subnets and network equipment
were not shown on the diagrams. For example, the connection to NARA’s Virtual
Private Network (VPN) 1 was not shown on either drawing. The Chief Information
Security Officer (CISO) and the CTO believed the VPN switch and gateway for the new
remote access system were outside the firewall but could not verify if that was the case.
According to NIST SP 800-41, placing the VPN behind the firewall would require VPN
traffic to be passed through the firewall while encrypted, preventing the firewall from
inspecting the traffic. Additional items not shown on the topology included:
    •    Connection to the Electronic Records Archive (ERA) system;
    •    Connection to the Public Access PC’s available to researchers;
    •    Wireless network connections; and
    •    Location of other firewalls in the internal infrastructure.

We also found the information on the topology drawing was not accurate. For example,
the topology identified the webmail and email servers located inside the network.
According to NIST SP 800-45, “Guidelines on Electronic Mail Security,” locating
webmail and email servers inside the network is inadvisable because it exposes internal

1
 A Virtual Private Network provides secure network communications across untrusted networks by
encrypting traffic.

                                             Page 4
                          National Archives and Records Administration
                                                                           OIG Audit Report No. 10-07


network components to additional risks. Mail servers are often targets of attackers and
once the internal mail server was compromised, the attacker would have access to the
internal network. According to the CISO, the webmail server was not located in the
internal network, however, the CISO added he would need to check with the IT Services
Division (NHT) to make sure his statement was correct.

We identified several potential areas of concern on the network topology:
    •	 NARA uses only one firewall between its internal private network and the outside
       public network. This solution does not provide redundancy for the network and
       could affect the availability of NARANet. More reliability could be achieved by
       implementing high-availability firewalls which allow one firewall to take over for
       another if the first firewall fails or is taken offline for maintenance. These
       firewalls are deployed at the same spot in the network topology so that they both
       have the same external and internal connections.
    •	 NARA allows direct access from another Government agency into the internal
       network. According to NH officials, the router configuration restricts traffic into
       the network, however they had not reviewed the router configuration to ensure
       their assumptions were correct. According to NIST SP 800-41, organizations
       should use firewalls wherever their internal networks and systems interface with
       external networks and systems. Placing a firewall between NARA’s internal
       network and the outside agency could prevent unauthorized access to NARA
       systems and resources and would also log traffic going into and out of our
       network.
    •	 NARA allows web servers in the Demilitarized Zone (DMZ) 2 to connect directly
       into the internal network. For example, traffic from the Internet goes into the
       firewall and is routed to these web servers. Traffic can pass between these web
       servers and NARA’s internal network without first going back through the
       firewall. According to NIST SP 800-41, all connections from the DMZ to the
       internal network should go through the firewall so that firewall policies are
       applied.

NH officials did not have a process in place to update and maintain an accurate network
drawing. The network topology we reviewed was created by the previous contractor and
has not been updated since the new contractors began managing the network in April
2009. The CISO stated that the network drawings were not updated as often as he would
like because he would want the network drawings refreshed every time there was a
change in the network such as a new subnet or new device installed.

According to the CISO, the IT Services contractor was responsible for preparing network
diagrams however; in reviewing the contract, the CISO found that the contract does not
have a schedule for delivering or updating network diagrams on a regular basis. Instead,
the CISO stated he would be able to request diagrams and receive them on an ad-hoc

2
 The DMZ is a network segment inserted as a “neutral zone” between an organization’s private network
and the Internet.

                                              Page 5
                           National Archives and Records Administration
                                                                       OIG Audit Report No. 10-07


basis. According to the CISO, this is acceptable because the cost of maintaining accurate
and valid enterprise level diagrams on a continuous basis was not justified by any
business need for that level of information. In addition, NH officials believed the high-
level topology diagrams were “good enough” for initiating analytical work.

The IT Services contractor created a physical connectivity drawing by hand, logging onto
individual devices and using the “show IP route” command. According to the contractor,
his drawing was originally created for the network team’s use and not at the request of
NH officials. The contractor was not aware of any automated tools at NARA that could
be used to create a network diagram even though the Enterprise Architecture lists two
tools already in use by NH which could be used to create and maintain network diagrams.
The use of automated tools could assist NH in updating and maintaining an accurate
topology.

The CISO believed it was possible to maintain network security without accurate network
diagrams. We question this assertion because without a current, detailed network
topology the CISO lacks critical information necessary to assess the network
environment and secure NARA’s IT Infrastructure from potential compromise.

Recommendations

1. The Assistant Archivist for Information Services/CIO should develop a
comprehensive topology of the current network environment and maintain the drawing
by updating the drawing periodically (i.e. monthly or quarterly).

2. The Assistant Archivist for Information Services/CIO should develop network
diagrams for each field office.

3. The Assistant Archivist for Information Services/CIO should assess and document the
risks involved with: a) the use of one firewall; b) the direct connection by an external
agency into NARA’s internal network; and c) traffic that can pass between a web server
and the internal network without first going through the firewall.

Management Comments

The Assistant Archivist for Information Services concurred with the recommendations.


Boundary Protection: Firewall Rules and Policy Needs Improvement

The NARA firewall configuration included numerous unnecessary rules along with two
rules which allow all traffic to go through the firewall. This occurred because NH has
not created a formal firewall policy to identify the network traffic that needs to pass into
and out of NARA's network and did not regularly review the firewall configuration.
According to NIST SP 800-41, a firewall policy dictates how firewalls should handle
network traffic for specific IP addresses and address ranges, protocols, applications, and


                                           Page 6
                        National Archives and Records Administration
                                                                       OIG Audit Report No. 10-07


content types based on the organization’s information security policies. It is important to
periodically test to verify that firewall rules are functioning as expected. As a result,
NARA’s firewall may not have the correct ruleset in place to prevent unauthorized access
to its systems and resources. In addition, unnecessary firewall rules in the configuration
create latency problems in the network.

Network traffic into and out of NARANet passes through the main NARA firewall. The
firewall takes traffic that has not been checked, checks it against the firewall's policy, and
then acts accordingly by either passing the traffic along or blocking the traffic.
According to NIST, generally firewalls should block all inbound and outbound traffic
that has not been expressly permitted by the firewall policy in order to decrease the risk
of an attack and to reduce the volume of traffic carried on the organization's networks.
NARA's IT Security Methodology follows this best practice, stating NH shall deny
network traffic by default and shall only allow network traffic by exception.

We reviewed the main firewall configuration which defines the rule sets for network
traffic and found the “deny all, allow by exception” rule was not always followed. We
also identified improvements needed in the configuration of the firewall. Specifically:

a) The main firewall configuration contained two “permit ip any any” rules on two
access control lists which allows all traffic without exception. These statements should
not be included in the firewall configuration because they allow all traffic to go through
the firewall and do not follow the NARA IT security policy of only permitting traffic by
exception.

b) The configuration for the firewall was almost 50 pages long and contained many
unnecessary rules along with text remarks that were not matched with the corresponding
rules. According to the Cisco PIX Command Reference Guide, the access lists on the
firewall have an implicit deny at the end of the list; so unless explicitly permitted, traffic
cannot pass. Instead of using the implicit deny rule, the NARA firewall contained
hundreds of rules to deny network traffic to specific IP addresses. Traffic from the
outside then has to be checked against each one of these rules to determine if it is a
match, increasing the amount of time it takes traffic to pass into the network (if allowed).

c) The St. Louis firewall configuration did not match the NARA main firewall
configuration. As the NARANet failover connection, the St. Louis firewall should have a
similar configuration to the NARA main firewall to ensure only traffic permitted is
allowed into the network. If a properly configured firewall is not placed at this entry
point into NARANet, malicious traffic normally blocked by the main NARA firewall
would be able to enter the network. As changes are made to the main firewall
configuration, necessary changes should be replicated on the St. Louis firewall.

NH did not regularly review the firewall configuration to uncover rules that were no
longer needed or new requirements that needed to be added to the firewall. An NHT
official agreed their staff should be periodically reviewing the firewall configuration and
stated that in the past it may have been done informally. In addition, NH has not


                                           Page 7
                        National Archives and Records Administration
                                                                      OIG Audit Report No. 10-07


conducted penetration testing to assess the overall security of their network environment.
According to NIST, penetration testing can be used to verify a firewall ruleset is
performing as intended. With the award of a new IT Support Services Contract, new
network administrators began managing the network devices in April 2009. According to
one network administrator, they identified several areas where vulnerabilities existed in
the firewall configuration. However, NH had not formally requested a firewall review
and the contractor had not submitted any recommendations to make changes to the
firewall.

According to NIST SP 800-41, to improve the effectiveness and security of their
firewalls, organizations should create rulesets that implement the organization’s firewall
policy while supporting firewall performance. NARA does not have a formal policy
regarding the firewall ruleset and has not documented a list of traffic which should be
allowed to pass into and out of the network. We identified confusion between NH offices
as to whose responsibility it was to create a firewall policy. Without a firewall policy,
network administrators may be unaware of management's expectations for how the
firewall should function. To create a ruleset, NARA will need to determine what types of
traffic are required, including protocols the firewall may need to use for management
purposes.

Recommendations
4. The Assistant Archivist for Information Services/CIO should perform a risk analysis
to develop a list of the types of traffic needed by the organization.

Management Comments
The Assistant Archivist for Information Services did not concur with the
recommendation, stating they conduct risk assessments system-by-system in the C&A
process and do not see a compelling business reason to change this strategy.

Audit Response
According to NIST SP 800-41, before a firewall policy is created, some form of risk
analysis should be performed to develop a list of the types of traffic needed by the
organization and categorize how they must be secured—including what types of traffic
can traverse a firewall under what circumstances. This could be performed as part of the
certification and accreditation of NARANet and documented in the system risk
assessment. Therefore, the Assistant Archivist for Information Services should
reconsider her position on this recommendation.

5. The Assistant Archivist for Information Services/CIO should create a firewall policy
to establish rules for inbound and outbound traffic and how the firewall will be managed
and updated.

6. The Assistant Archivist for Information Services/CIO should periodically review the
firewall configuration and conduct penetration testing at least annually.



                                          Page 8
                       National Archives and Records Administration
                                                                               OIG Audit Report No. 10-07


7. The Assistant Archivist for Information Services/CIO should review the St. Louis
firewall configuration and ensure necessary firewall rules are included.
Management Comments
The Assistant Archivist for Information Services concurred with the recommendations.

Firewall Logs Not Reviewed and Assessed

Firewall log files were not being reviewed to identify potential threats. This occurred
because the server on which the logs were recorded was removed in June 2009 to be
replaced by a new product however, the CIO has not assigned responsibility for
reviewing the logs. According to NIST SP 800-41, firewall logs and alerts should be
continuously monitored to identify threats. By not reviewing the firewall logs, NARA
may not know if attacks or other inappropriate activity have occurred.

According to NIST SP 800-41, logging is a critical step in preventing and recovering
from failures as well as ensuring proper security configurations are set on the firewall.
Proper logging can also provide vital information for responding to security incidents. In
addition, real-time alerts should be set up to notify administrators when important events
such as modifications or disabling of the firewall rules occur on the firewall. Part of
managing the firewall involves continuously monitoring the logs and alerts to identify
threats.

Previously, NH used a server to store the firewall logs. However, the server was
removed from operation in June 2009 and has not been replaced. According to an NHT
official, the server was removed due to security vulnerabilities and concerns. Instead of
replacing the server, NH officials are in the process of implementing a Security
Information Management (SIM) 3 tool which will collate information from multiple
network services such as firewalls, network and host based intrusion detection services,
web servers, and routers. NH has been in the process of installing the SIM tool for over
three years now. While the SIM can accept and store logs, it has not been populated with
rules to analyze the data.

We found that while firewall logs are currently being sent to the SIM, responsibility for
reviewing these logs and acting on the information has not been assigned. Network
administrators stated that they do not have access to the tool and that contractually their
responsibility was only to send logs to the server. An NHI official stated that the security
support contractor was using the SIM however, the support contractor stated that
responsibility for monitoring and reporting information in the SIM has yet to be
determined. According to the CISO, firewall logs are currently reviewed on an ad-hoc


3
 The SIM tool accepts alert data from devices throughout the network, correlates the data, and can then
determine whether several indicators are related. By correlating the data such as system events, anti-virus
events, and vulnerability data, the SIM can determine if an attacked system was vulnerable to the attack
seen and determine whether the attack succeeded. However, NARA must first develop and implement
rules that tell the SIM what to correlate.

                                               Page 9
                            National Archives and Records Administration
                                                                       OIG Audit Report No. 10-07


basis while the concept of operations outlining roles and responsibilities for the new tool
are being developed.

Recommendations
8. The Assistant Archivist for Information Services/CIO should assign responsibility to
the appropriate individuals to monitor the firewall log alerts to determine if attacks or
inappropriate activity has occurred.
9. The Assistant Archivist for Information Services/CIO should expedite implementation
of the SIM tool.
Management Comments
The Assistant Archivist for Information Services concurred with the recommendations.

Access Controls

Access controls provide reasonable assurance that access to computer resources (data,
equipment, and facilities) is reasonable and restricted to authorized individuals. The
Government Accountability Office (GAO) defines access controls as including both
logical and physical controls. Logical access controls require users to authenticate
themselves through the use of passwords or other identifiers and limit the files and other
resources that authenticated users can access and the actions they can execute. Physical
access controls involve restricting physical access to computer resources and protecting
them from intentional or unintentional loss or impairment.

Logical Access Controls Need to be Strengthened

We identified several weaknesses in the logical access controls for network infrastructure
equipment and selected servers we reviewed. This occurred because adequate controls
were not in place and additional oversight over contractor actions was needed. NIST SP
800-53 and NARA’s IT Security Methodology require unique identification and
authentication when accessing an IT system. Without appropriate controls in place, there
is an increased risk of unauthorized access to network devices and servers.

Our review identified the following weaknesses:
   •	 Multifactor authentication was not used for network access to administrator
      accounts;
   •	 An administrator account belonging to a former contractor was shared by the new
      network administrators;
   •	 Network device passwords were not changed immediately after a network 

      administrator left; and

   •	 Servers contained anonymous administrator accounts that may be unnecessary.
NIST SP 800-53 requires each individual to be uniquely identified and authenticated
when accessing an information system. According to GAO, this occurs through the


                                          Page 10
                        National Archives and Records Administration
                                                                       OIG Audit Report No. 10-07


implementation of adequate logical access controls. User authentication establishes the
validity of a user’s claimed identity using mechanisms such as requiring them to provide
something they have (such as a smart card); something they alone know (such as a
password or personal identification number); or something that physically identifies them
uniquely (such as a biometric fingerprint or retina scan). Multifactor authentication is
accomplished by using a combination of these mechanisms.

a.) We found that access to infrastructure devices by network administrators did not meet
requirements established by NIST. Specifically, NIST SP 800-53, control IA-2 requires
the use of multifactor authentication for network access to privileged accounts. NARA’s
network administrators used the network to manage the routers, switches, and firewalls
from the computers at their desks instead of having to physically connect to each device.
According to GAO, network access to devices can significantly increase the risk of
unauthorized access. Therefore, to increase security, identification and authentication
should be accomplished using multifactor authentication such as a smart card in
conjunction with a password. NARA’s network administrators were authenticated using
only passwords, which does not meet the multifactor authentication requirement. In
addition, network administrators had the ability to manage the network devices remotely
using the Nortel VPN, which does not use multifactor authentication.

b.) We reviewed the TACACS server log for passed authentications and found a userID
belonging to a former network administrator had been used to successfully log into
NARA devices multiple times over a three month period. Terminated employees who
continue to have access to critical or sensitive resources such as firewalls, routers, and
switches pose a major threat to the network. We referred this to OIG Investigations as a
potential violation of 18 U.S.C. 1030 “Unauthorized Access to Government Computer
System.” In a meeting with the CISO, the Lead Network Engineer explained that his
network team had used this account on several occasions at the start of the new IT
Services and Support contract in April 2009. According to the Lead Network Engineer,
the previous contractor gave the new contractors the password to his account and the
account was only enabled when needed. There were at least four individuals who knew
the password to this account.

The use of this account by multiple network administrators was in violation of NARA’s
IT Security Requirements which does not allow accounts to be used by more than one
user. The use of a shared account resulted in a lack of user accountability over the
actions performed by the network administrators using this account because it would be
impossible to determine the specific individual who performed the actions. The IT
Operations Chief stated the account was only used the first week in April; however, we
identified several logins that occurred after that time period including two successful
logins in May and two in June. The Lead Network Engineer stated the administrator
account has now been deleted.

c.) Network device passwords were not changed immediately after a network
administrator left. According to the Lead Network Engineer, he was not directed to
change the passwords until the week after the previous network administrator’s departure


                                          Page 11
                        National Archives and Records Administration
                                                                       OIG Audit Report No. 10-07


and it took several days to change the passwords on all devices. According to the
Standard Operating Procedure, the passwords for system administrators must be changed
when a systems administrator leaves the program. However, the procedure states NARA
is responsible for submitting a request for administrator passwords to be changed. The IT
Operations Chief was not aware of the previous network administrators exact departure
date. As a result, there was an increased risk of unauthorized access during that time
period.

d.) We reviewed the administrator accounts on selected servers at NARA field sites and
found several servers had excessive administrator accounts. For example, a server
supporting the VISTA system at a Presidential Library had 12 users in the
"Administrators" group on the server. Of the 12 accounts, only three were assigned to
specific individuals. Other accounts included a Novell backup account even though this
was not a Novell server; two anonymous accounts, the purpose for which no
documentation was available; and an anonymous account for the St. Louis Engineers.

The IT Security Methodology for Access Control requires that NARA specifically
authorize and monitor the use of anonymous accounts and remove, disable, or otherwise
secure unnecessary accounts. All of the Windows servers we reviewed, except for one"       ('"'"\
had an anonymous administrator account named,               '. According to the NHT       p if'...)
Operations Chief, this account was the built-in administrator account that was renamed
for security reasons. While this was true for some of the servers we reviewed, we found
that the servers for the VISTA system had both the built-in administrator account and the
,         , account. No documentation was available regarding the creation and use ofthis
account. Additional anonymous administrator accounts, which may be unnecessary,
were found on the Windows servers.
NARA did not have adequate controls in place to prevent these weaknesses in logical
access controls. NARA's IT Security Methodology for Identification and Authentication
has not been updated to reflect the new controls for identification and authentication
required by the latest revision to NIST SP 800-53. In addition, NARA's IT Operations
staff needs to take a more proactive approach in monitoring actions by the contractor to
ensure NARA access control policy is followed.

Recommendations

10. The Assistant Archivist for Information Services/CIO should implement multifactor
authentication for network access to infrastructure devices and update the IT Security
Methodology for Identification and Authentication to reflect new requirements in NIST
SP800-53, Revision 3.

11. The Assistant Archivist for Information Services/CIO should periodically review
a) the access list for the central access control (TACACS) server to ensure accounts
belonging to terminated staff are secured and b) logs for the central access control server
to ensure successfullogins belong to current employees or contractors.




                                          Page 12
                        National Archives and Records Administration
                                                                      OIG Audit Report No. 10-07


12. The Assistant Archivist for Information Services/CIO should develop a process to
ensure NHT is alerted to changes in IT contractor staff so that passwords can be changed.

13. The Assistant Archivist for Information Services/CIO should review the
administrator accounts on field office servers and delete any unnecessary accounts.

Management Comments
The Assistant Archivist for Information Services concurred with the recommendations.

Physical and Environmental Protections at Field Sites Need Improvement

We visited 10 field sites and the ERA data center to observe the controls in place outside
the main NARA data center at AII and found that additional physical security and
environmental controls are needed to restrict physical access to computer resources and
protect them from intentional or unintentional loss or impairment. According to NARA’s
IT Security Requirements, NARA must limit physical access to information systems and
equipment and protect systems against environmental hazards.

Physical security controls restrict physical access or harm to computer resources and
protect these resources from intentional or unintentional loss or impairment. These
controls restrict physical access to computer resources, usually by limiting access to the
buildings and rooms in which the resources are housed and by periodically reviewing the
access granted, in order to ensure that access continues to be appropriate. Physical
controls also include environmental controls which prevent or mitigate potential damage
to facilities and interruptions in service. Examples of environmental controls include
smoke and water detectors, fire alarms and extinguishers, and uninterruptible power
supplies.

Physical Access Controls to Computer Rooms and Closets

Access to the areas where network equipment was located was not always limited to
personnel responsible for equipment administration and maintenance. This occurred
because key inventories and reviews of badge reader access had not been conducted
annually, as required by the NARA IT Security Methodology for Physical and
Environmental Protection. By not limiting access to areas where network equipment is
stored, there is an increased risk of theft of network equipment or loss of network
availability.

Badge readers were used at four of the facilities we visited to restrict entry of personnel
to the computer rooms and closets. However we identified several instances where
access was not limited to those personnel responsible for equipment administration and
maintenance. For example, at one Presidential Library, over 124 NARA and Library
Foundation employees had access to a closet where IT equipment was stored. As a result
of our review, the facility manager at that location took immediate action to reduce the
number of staff with access to the room. In another example, we reviewed the 273
badges issued at one of NARA’s record centers and found the badge belonging to the

                                         Page 13
                       National Archives and Records Administration
                                                                      OIG Audit Report No. 10-07


former security manager still had access to the server room. In addition, there were four
badges not assigned to a specific individual that had access to the server room. As a
result of our review, the facility manager took immediate action and deleted access for
these five badges.

At six locations visited, key locks were used to restrict access to the computer room.
Keys were generally given to the Field Office System Administrator, the facility
manager, and top management. However, at one Presidential Library we identified six
copies of the master key were unaccounted for. These master keys could be used to open
exterior doors as well as the door to the computer room. At another location, one of the
three keys to the computer room was unaccounted for.

According to NARA’s IT Security Methodology for Physical and Environmental
Protection, keys and other access devices controlling entry to facilities containing
information systems must be inventoried annually. We found key inventories and
reviews of badge reader access were not conducted annually as required. For example, at
one site with badge reader access, the facility manager had not considered access to the
computer room and closets as part of their review. The facility manager at one location
could not provide any evidence that a key inventory had ever been completed. At a third
location, the last evidence of a key inventory was from 1994.

Recommendation

14. The Archivist should direct the Assistant Archivist for Information Services/CIO, the
Assistant Archivist for Regional Record Services, and the Assistant Archivist for
Presidential Libraries to coordinate with the Assistant Archivist for Administration to
develop a mechanism to track access reviews and key inventories for computer rooms
and other locations where IT network infrastructure equipment is stored at the field sites.

Management Comments
The Assistant Archivist for Information Services concurred with the recommendation.

Physical Access to Network Equipment and Cables outside the Computer Room

Network equipment and cabling stored outside the computer room was not always
protected at the same level as equipment inside the computer room. This occurred
because NH did not have the proper controls in place to restrict access to network
equipment. NIST SP 800-53 controls require the organization to protect network
equipment and cabling within the facility to minimize potential damage and to minimize
the opportunity for unauthorized access. Without adequate protection there is a risk
network equipment could be stolen or network cables could be tampered with resulting in
a loss of network availability.

As part of the audit we reviewed the controls in place to protect network equipment
located outside the computer room. We observed that equipment was not always secured
to minimize the potential for theft, damage, or unauthorized access. For example, we

                                         Page 14
                       National Archives and Records Administration
                                                                      OIG Audit Report No. 10-07


observed network equipment stored in a janitorial closet (Figure 1). The rack holding the
equipment was not locked; therefore anyone with access to the closet had access to the
network equipment.




                 Figure 1. Network equipment stored in Janitorial Closet

At another location we observed a network switch stored in a lockable rack with the fiber
cable and power cord protected by conduit (Figure 2). However, when we first observed
the rack, it was unlocked and the door was left open, exposing the network equipment to
theft, damage, or tampering. Another switch in the same facility was also stored in an
unlocked rack (Figure 3). The key to this rack was initially located on top of the rack and
during the site visit the facility manager locked the rack and placed the key on his key
ring. In addition to the rack being unlocked, the fiber cable and power cord were not
protected and vulnerable to damage or tampering. Both of these examples occurred on a
floor accessible to the public. Doors separating the public museum from the employee
side where the equipment was located were closed but not locked.




Figure 2. Rack was unlocked           Figure 3. Rack was unlocked and key was
                                      located on top of the rack


                                         Page 15
                       National Archives and Records Administration
                                                                      OIG Audit Report No. 10-07


According to NIST SP 800-53 control PE-4, physical protections applied to information
system distribution and transmission lines help prevent accidental damage, disruption,
and physical tampering. Physical protections are necessary to help prevent
eavesdropping or in transit modification of unencrypted transmissions. In addition,
control PE-18 requires organizations to position information system components within
the facility to minimize potential damage from physical and environmental hazards and to
minimize the opportunity for unauthorized access. Without proper controls in place the
confidentiality and availability of NARANet could be impacted.

Recommendation

15. The Assistant Archivist for Information Services/CIO in conjunction with the
Assistant Archivist for Regional Record Services and the Assistant Archivist for
Presidential Libraries should periodically monitor the network environments at the field
sites to ensure network equipment and cables stored outside the computer rooms are
protected.

Management Comments
The Assistant Archivist for Information Services concurred with the recommendation.

Physical and Environmental Hazards to Network Equipment

Network equipment was not always protected from physical and environmental hazards.
This occurred because racks were not provided to store the equipment properly. In
addition, facilities owned by other Federal agencies required approval before changes
could be made. As a result, network equipment could be inadvertently or deliberately
misused, damaged, or destroyed.

According to NARA’s Physical and Environmental Protection Methodology control
PE-18 “Location of Information System Components,” NARA positions information
system components within the facility to minimize potential damage from physical and
environmental hazards and to minimize the opportunity for unauthorized access.

In one example, installation of a wall mounted rack with network equipment was not
strong enough to hold the rack and a jack stand was needed to support the weight of the
cabinet (Figure 4). If the rack was to fall, the network equipment could be damaged or
destroyed. In another example, we found some NARA facilities were lacking the proper
racks to store the IT equipment. Specifically, we observed a NARANet switch which
was placed on a temporary rack until the proper rack could be provided by NH
(Figure 5). This places the equipment at an increased risk of damage because the
equipment could be inadvertently knocked over.




                                         Page 16
                       National Archives and Records Administration
                                                                      OIG Audit Report No. 10-07




Figure 4. Jack needed to hold rack in place        Figure 5. Switch on temporary rack

At two facilities a rack was not available to store the PBX telephone equipment
(Figures 6 and 7). Without racks to secure the equipment in place there is an increased
risk that the equipment could be damaged, resulting in a loss of telephone service.




Figure 6. PBX balanced on top of UPS                    Figure 7. PBX not in a rack

We also observed that additional environmental controls were not usually implemented to
mitigate the effects of fire, heat, or other natural disasters. None of the facilities we
visited had heat or water alarms. For example, at one facility environmental controls had
not been implemented to mitigate the affect of a flood even though the facility is located
in an area subject to flash flooding. Specifically, network equipment was stored in a
room in the basement which did not have a raised floor and water alarms were not used to
alert officials to flooding in the room.

We observed at least two NARA facilities had water sprinkler systems in the computer
rooms which could cause damage to the equipment if triggered. For example, a data
center housing a critical NARA system had a wet pipe sprinkler system. According to
NH officials, because the building is owned by another agency, they had to submit a
request to replace the wet pipe sprinkler system with a gas system.




                                         Page 17
                       National Archives and Records Administration
                                                                       OIG Audit Report No. 10-07


Additional environmental hazards we observed included:
   •	 One computer room had exterior windows and was located on the first floor;
   •	 Only two facilities had raised floors in the computer room; and
   •	 Not all facilities had the capability to shut off power to equipment in the computer
      room during emergency situations.
Without proper environmental controls in place network equipment could be
inadvertently damaged or destroyed.

Recommendations
16. The Assistant Archivist for Information Services/CIO in conjunction with the
Assistant Archivist for Regional Record Services and the Assistant Archivist for
Presidential Libraries should conduct a review to determine which facilities require racks
and provide the necessary racks.
17. The Assistant Archivist for Information Services/CIO in conjunction with the
Assistant Archivist for Regional Record Services and the Assistant Archivist for
Presidential Libraries should perform a risk assessment for each of the field offices to
determine whether changes to the buildings are needed in order to properly protect
network equipment.
Management Comments
The Assistant Archivist for Information Services concurred with the recommendations.


Wireless Networks

Three of the sites we visited had a wireless network as part of the local area network;
however, NARA officials were not monitoring for unauthorized access to the network.
This occurred because NARA had bought the hardware needed for a monitoring tool but
had not yet implemented the tool. According to NIST SP 800-53 Control AC-18, the
organization is to monitor for unauthorized wireless access. As a result, NARA does not
know whether unauthorized users or devices were attempting to access, or had already
accessed, the wireless network.

NARA is in the process of deploying wireless networks throughout the regions, including
the Presidential Libraries. Three sites we visited had already deployed wireless networks.
We found none of the three sites were using AirDefense. For example, at the Bush
Library, the FOSA stated that the hardware for AirDefense had been purchased but it had
not been installed.

According to NARA’s Operations Architecture, AirDefense is a wireless network
intrusion detection system that monitors wireless sensors for intrusion attempts coming in
from wireless sources. NARA planned to start deploying sensors for the system in 2009,
however, according to the CISO, the project team that was responsible for the wireless
build-outs did not have the money to include sensor installation in FY 2009. The CISO


                                          Page 18
                        National Archives and Records Administration
                                                                       OIG Audit Report No. 10-07


stated that a follow-on contract will be needed to install sensors at the existing sites in
early FY 2010.

Recommendations

18. The Assistant Archivist for Information Services/CIO should monitor for
unauthorized wireless access to NARANet.

Management Comments
The Assistant Archivist for Information Services concurred with the recommendations.




                                          Page 19
                        National Archives and Records Administration
                                                                                 OIGAuditReportNo.10-07



           Appendix A: Site Visit Results
                                                            Regional
                                         Record Centers     Archives            Presidential Libraries


                                \,~
                                                                                                                I
                                         ,                                                         I




                                                                  I                I'                     I
                                                                                          ,



Physical and Environmental
Controls Tested                                                           I                        \
Is there a separate computer room at     y      y     y     y     N      Y         Y      Y       Y       Y       Y
the facility?
Is a key or access badge needed for     Badge   Key   Key   Key   N/A   Badge     Badge   Key     Key    Key   Badge
entry?
Is the room unmarked? (i.e. there
                                                                                                                 Not
should be no visible signs to            y      N     N     N      Y     Y         N      Y       Y       N    Reviewed
indicate there is computer                                                                                      (NR)

equipment in the room)
Is computer equipment stored
outside the main computer facility       N      y     Y     Y     N/A    Y         Y      N       N       N     NR
secured (i.e. stored in a locked
rack)?
Are visitors signed in and escorted?     N      N     N     N     N      N         N      N       N       N       Y

Are physical access logs                 N      N     N     N     N      N         N      N       N       N      N
maintained?
Does the room contain air                y      y     y     y     y      y         y          y   y       y      y
conditioning?
Is the room a reasonable
temperature? (i.e. the room does         y      y     y     y     y      y         y      y       y       y       y
not seem overly hot or cold, fans
are not needed to cool the room)
Does the room contain smoke, heat,       N      N     N     N     N      N         N      N       N       N      N
and water alarms?
Are fire extinguishers kept near the     y      y     y     y     y      N         Y      Y       Y       N      NR
equipment?
Is the equipment free from dust?
                                         y      y     y     y     y      y         y      y       y       NR      Y
(i.e. there is no visible dust on the
equipment)
Does the facility have an
uninterruptible power supply or          y      y     y     y     y      y         y      y       y       y       y
backup generator installed for the
computer equipment?
Are surge protectors used?               y      y     N     Y      Y     Y         Y      Y       Y       Y      NR

Does each piece of equipment
contain a Blue NARA barcode              y      N     N     N     N      N         N      Y       N       N       Y
and/or a Red NARA IT Hardware
barcode?
Is the room housing the PBX              y      y     y     y     N/A    Y         Y      Y       Y       N       Y
equipment locked?
Attachment 1. Management Comments
              on the Draft Report
                        National Archives and Records Administration
                                                                                          8601 Adelphi Road
                                                                         College Park, Maryland 20740-6001


Date            APR 21 2010
Reply to
Attn of     Office of Information Services (NH)

Subject     Comments on Draft OIG Audit Report 10-07, Audit ofNARA'S Network Infrastructure

To          Office of Inspector General (OIG)


            We offer the following comments on the subject draft report of our agency's infrastructure.
            It is clear from the draft that the auditor spent considerable time developing the findings and
            recommendations and we commend the draft's coherence, organization, and opportunities for
            improving our network infrastruture when we implement the recommendations.

            EXECUTIVE SUMMARY

           In the middle of the first page, the statement is made that the weaknesses found in this audit
           "could jeopardize the availability ofNARANet." Further, the first bulleted statement on the
           page states: "The ChiefInformation Officer and her staff were unable to effectively manage
           and assess the overall network security ofNARA's infrastructure because a complete and
           accurate network diagram was not maintained."

           We disagree with both statements. On the diagram issue, there is simply no "one" singular
           diagram or topology that represents a complete, contemporaneous, and accurate depiction of
           the entire network. Multiple documents that NH maintains serve this purpose. NH currently
           maintains, among others, a broad set of network diagrams, including: NARA Network
           Logical Design, Typical Wireless Pilot Logical Network A, Typical Wireless Pilot Physical
           Network A, NARA WAN Frame Relay, Novell Groupwise Fully Meshed Network, COOP
           Disaster Recovery Component Location, St. Louis COOP DR Network Infrastructure,
           Rocket Center COOP Network Logical Design, NARA Ethernet Tap Deployment, Austin
           Automation Center v5.5, ERA WAN Network Topology, DREN Connection at A-II, NARA
           Access to ERA, and ERA WAN RC Physical. Most of these engineering drawings are
           captured in NARA's Enterprise Architecture Operations Engineering Baseline document,
           which we are in the process of updating to reflect recent changes such as the recent MPLS
           network upgrade.

           On the CIO managing the overall network security, this assessment is primarily done using
           monitoring tools that provide real-time and near-real time reporting on threats and
           vulnerabilities, not diagrams. Those tools are in place as is a POA&M process that provides
           strong management controls when weaknesses are found in the course of network operations.
           We assert that diagrams assist planning and change management processes, not day-to-day
           network security operations.
 OBJECTIVE, SCOPE, METHODOLOGY

 We disagree with the statement near the end of page three that states "We originally planned to
 perform vulnerability scans of the network, however; NH was unable to provide us with a current
 listing ofIP addresses." Vulnerability scans do not rely on having IP addresses. NARA has a
 published range ofIP addresses and the auditor could have effectively performed a scan of this
 range and made an effective evaluation on the security status ofNARA based on the scan. The
 issue of effectively working with our NH-appointed point of contact for audits applies here; if
 there was any question of what IP address set the auditor was provided, the NH point of contact
 could have been contacted to rectify this situation.

 FINDINGS AND RECOMMENDATIONS

 Review of Network Devices

 Inaccurate and Incomplete Network Diagram

 We disagree with several findings in this section, most based on an over reliance on a flawed
 assumption about the proper use of network diagramming.

    •   "This occurred because a complete and accurate network diagram was not maintained."

Updates to network diagrams are on-going, they are not static. While it is theoretically possible
to develop drawings that are a "snapshot in time," changes to networking and engineering
diagrams are a dynamic and ongoing process. Further, as before, it is impossible to render on a
single diagram the entirety of the NARANet infrastructure. A "full set" provides an accurate and
complete picture.

    •   "Specifically, NH officials did not have a process in place to update and maintain an
        accurate network diagram and believed it was the contractor's responsibility to do so."

And that is the case; NITTSS contractors do have this responsibility under the contract. We have
advised the contractor about schedule of their schedule of deliverables.

    •   "By not having a complete network diagram, NH officials are not aware of potential
        security vulnerabilities that may exist in the network."

We believe the determination and reliance oil a network diagram or topology to determine
vulnerabilities is an assumption with limitations. First, any diagram has a potential latency in
keeping the document up-to-date with changes. Second, the context ofNARA's "flat" network
design, and the limited and centrally controlled external access points, reduces the importance of
diagrams in evaluating the risks associated with network interfaces. And the flip side is true as
well; simply having a "perfect" network diagram/s does not constitute the broad assumption that
NARA does not have security vulnerabilities.
 Recommendations:

 1. The Assistant Archivist for Information Services/CIO should develop a comprehensive
 topology of the current network environment and maintain the drawing by updating the
 drawing periodically (i.e. monthly or quarterly).

 Response: Concur, but these are sets of "diagrams/topologies," and not a single rendering.

 2. The Assistant Archivist for Information Services/CIO should develop network diagrams
 for each field office.

 Response: Concur.

3. The Assistant Archivist for Information Services/CIO should assess and document the
risks involved with: a) the use of one firewall; b) the direct connection by an external
agency into NARA's internal network; and c) traffic that can pass between a web server
and the internal network without first going through the firewall.

Response: Concur.

Boundary Protection: Firewall Rules and Policy Needs Improvement

Recommendations:

4. The Assistant Archivist for Information Services/CIO should perform a risk analysis to
develop a list of the types of traffic needed by the organization.

Response: Do not concur. We conduct risk assessments system-by-system in the C&A process
and see no compelling business reason to change this strategy.

5. The Assistant Archivist for Information Services/CIO should create a firewall policy to
establish rules for inbound and outbound traffic and how the firewall will be managed and
updated.

Response: Concur.

6. The Assistant Archivist for Information Services/CIO should periodically review the
firewall configuration and conduct penetration testing at least annually.

Response: Concur.

7. The Assistant Archivist for Information Services/CIO should review the St. Louis
firewall configuration and ensure necessary firewall rules are included.

Response: Concur.
 Firewall Logs Not Reviewed and Assessed
 At the bottom of page 8, the draft states in part: " ...however, the CIa has not assigned
 responsibility for reviewing the logs." In the second paragraph on page 9, the draft reads in part:
 "We found that while firewall logs are currently being sent to the SIM, responsibility for
 reviewing these logs and acting on the information has not been assigned." These statements are
 not entirely accurate. Section 7.9 ofthe NITTSS Performance Work Statement clearly assigns
 responsibility for reviewing firewall logs to the NITTS contractor. And to facilitate this work the
 Government has put the NetForensics SIM system in place that consolidates and automates the
 log analysis function. Basic SIM functionality is now in place and we are working to get more
 systems reporting to the SIM and placing additional log reviews in place. While we accept the
 general spirit of the word "expedite," in the recommendation below, we are already using all due
 diligence to fully implement the SIM.

Recommendations:

8. The Assistant Archivist for Information Services/CIO should assign responsibility to the
appropriate individuals to monitor the firewall log alerts to determine if attacks or
inappropriate activity has occurred.

Response: Concur.

9. The Assistant Archivist for Information Services/CIO should expedite implementation
of the SIM tool.

Response: Concur.

Access Controls

Logical Access Controls Need to be Strengthened

Recommendations:

10. The Assistant Archivist for Information Services/CIO should implement multifactor
authentication for network access to infrastructure devices and update the IT Security
Methodology for Identification and Authentication to reflect new requirements in NIST SP
800-53.

Response: Concur to the extent that our actions reflect revision 3 to NIST 800-53.

11. The Assistant Archivist for Information Services/CIO should periodically review
a) the access list for the central access control server to ensure accounts belonging to
terminated staff are secured and b) logs for the central access control server to ensure
successfullogins belong to current employees or contractors.

Response: Concur.
 12. The Assistant Archivist for Information Services/CIO should develop a process to
 ensure NHT is alerted to changes in IT contractor staff so that passwords can be changed.

 Response: Concur.

 13. The Assistant Archivist for Information Services/CIO should review the administrator
 accounts on field office servers and delete any unnecessary accounts.

 Response: Concur.

 Physical and Environmental Protections at Field Sites Need Improvement

 We need to point out that many of the issues in the following sections also are the responsibility
 of other Offices at NARA (particularly NA) to ensure that NARA critical infrastructure
 components are properly protected and facilities are properly maintained. NH is provided space
 to operate equipment at these sites and is relying on NA, NL, and NR to ensure adequate security
 protections based on legal requirements and best business practices. We are working with field
 offices to properly protect and maintain all our IT assets.
 Physical Access Controls to Computer Rooms and Closets

 Recommendations:

14. The Archivist should direct the Assistant Archivist for Regional Record Services the
Assistant Archivist for Presidential Libraries, and the Assistant Archivist for Information
Services to work with the Space and Security Management Division to develop a
mechanism to track access reviews and key inventories at the field sites.

Response: Concur.

Physical Access to Network Equipment and Cables outside the Computer Room

Recommendations:

15. The Assistant Archivist for Information Services/CIO in conjunction with the Assistant
Archivist for Regional Record Services and the Assistant Archivist for Presidential
Libraries should periodically monitor the network environments at the field sites to ensure
network equipment and cables stored outside the computer rooms are protected.

Response: Concur.
 Physical and Environmental Hazards to Network Equipment

 Recommendations:

 16. The Assistant Archivist for Information Services/CIO in conjunction with the Assistant
 Archivist for Regional Record Services and the Assistant Archivist for Presidential
 Libraries should conduct a review to determine which facilities require racks and provide
 the necessary racks.

 Response: Concur.

17. The Assistant Archivist for Information Services/CIO in conjunction with the Assistant
Archivist for Regional Record Services and the Assistant Archivist for Presidential
Libraries should perform a risk assessment for each of the field offices to determine
whether changes to the buildings are needed in order to properly protect network
equipment.

Response: Concur.

Wireless Networks

Recommendations:

18. The Assistant Archivist for Information Services/CIO should monitor for unauthorized
wireless access to NARANet.

Response: Concur.

If you have any comments or questions, please contact Steve Heaps via email or on
301-837-3170.



   )1axile !f'f)~                          .
~~~-HAMORPHY                   U_
Assistant Archivist for Information Services
